<html>
<title> - SERVING OUR SERVICE MEMBERS: A REVIEW OF PROGRAMS FOR VETERAN ENTREPRENEURS</title>
<body><pre>[Senate Hearing 113-240]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-240

 
     SERVING OUR SERVICE MEMBERS: A REVIEW OF PROGRAMS FOR VETERAN 
                             ENTREPRENEURS

=======================================================================

                               ROUNDTABLE

                               BEFORE THE

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2013

                               __________

    Printed for the Committee on Small Business and Entrepreneurship


         Available via the World Wide Web: http://www.fdsys.gov


                  U.S. GOVERNMENT PRINTING OFFICE
86-306                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b3c2b341b382e282f333e372b7538343675">[email&#160;protected]</a>  

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED THIRTEENTH CONGRESS

                              ----------                              
                   MARY L. LANDRIEU, Louisiana, Chair
                 JAMES E. RISCH, Idaho, Ranking Member
CARL LEVIN, Michigan                 DAVID VITTER, Louisiana
MARIA CANTWELL, Washington           MARCO RUBIO, Florida
MARK L. PRYOR, Arkansas              RAND PAUL, Kentucky
BENJAMIN L. CARDIN, Maryland         TIM SCOTT, South Caarolina
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KAY R. HAGAN, North Carolina         MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota         RON JOHNSON, Wisconsin
EDWARD J. MARKEY, Massachusetts
COREY A. BOOKER, New Jersey
                Jane Campbell, Democratic Staff Director
           Skiffington Holderness, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Landrieu, Hon. Mary L., Chair, and a U.S. Senator from Louisiana.     1
Enzi, Hon. Michael B., a U.S. Senator from Wyoming...............     3
Fischer, Hon. Deb, a U.S. Senator from Nebraska..................     4

                           Witness Testimony

Jeppson, Rhett, Associate Administrator, Veterans Business 
  Development, Office of Veterans Small Business Development, 
  Small Business Administration..................................     5
Celli, Louis, Legislative Director, American Legion..............     5
Spann, Harvetta, President, BLS Group, Inc.......................     6
Dirks, Aaron, New Orleans, LA....................................     6
Anderson, Jason..................................................     6
Rehder, Robert, North Carolina Veterans Business Outreach Center.     7
Haynie, Mike, veteran, United States Air Force; Executive 
  Director, Institute for Veterans and Military Families, 
  Syracuse University; and Barnes Professor of Entrepreneurship, 
  Syracuse University Business School............................     7
Ferguson, Chris, President, Shoulder 2 Shoulder, Arlington, VA...     7
Rowe, C. E. ``Tee,'' President, Small Business Development Center     8
Wynn, Joe, President, the Vets Group; National Legislative 
  Director, NABVETS; and veteran, United States Air Force........     8

          Alphabetical Listing and Appendix Material Submitted

Anderson, Jason
    Testimony....................................................     6
    Prepared statement...........................................    42
Ashe, Barbara A.
    Prepared statement...........................................    65
Celli, Louis
    Testimony....................................................     5
    Prepared statement...........................................    35
Coster, John
    Discussion paper.............................................    64
Dirks, Aaron
    Testimony....................................................     6
    Biographical sketch..........................................    41
Enzi, Hon. Michael B.
    Opening statement............................................     3
Ferguson, Chris
    Testimony....................................................     7
    Prepared statement...........................................    45
Fischer, Hon. Deb
    Opening statement............................................     4
Haynie, Mike
    Testimony....................................................     7
    Prepared statement...........................................    44
Jeppson, Rhett
    Testimony....................................................     5
    Prepared statement...........................................    32
Landrieu, Hon. Mary L.
    Opening statement............................................     1
Porter, Rich
    Letter.......................................................    63
Ramos, Luis
    Letter to Lena Postanowicz and attachment....................    58
Rehder, Robert
    Testimony....................................................     7
Reyes, Roger
    Letter.......................................................    67
Rowe, C. E. ``Tee''
    Testimony....................................................     8
    Prepared statement...........................................    50
Spann, Harvetta
    Testimony....................................................     6
    Prepared statement...........................................    39
Wynn, Joe
    Testimony....................................................     8
    Prepared statement...........................................    57


                 SERVING OUR SERVICE MEMBERS: A REVIEW
                 OF PROGRAMS FOR VETERAN ENTREPRENEURS

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2013

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:48 a.m., in 
Room SR-428A, Russell Senate Office Building, Hon. Mary L. 
Landrieu (chair of the committee) presiding.
    Present: Senators Landrieu, Enzi, and Fischer.

 OPENING STATEMENT OF HON. MARY L. LANDRIEU, CHAIR, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chair Landrieu. Good morning, and welcome to the Small 
Business roundtable, ``Serving our Service Members: A Review of 
Programs for Veteran Entrepreneurs.'' We really appreciate your 
testimony and participation in this important hearing.
    I would like to personally acknowledge one of our 
participants from Louisiana, Aaron Dirks, the Chairman of 
PosiGen, New Orleans, and I welcome all of our participants 
today.
    As the conflicts in Iraq and Afghanistan come to a close 
and our troop levels draw down from the Middle East, the 
American economy is gaining access to tens of thousands of 
smart, disciplined, and motivated men and women leaving their 
posts overseas to enter the workforce here at home. We ask our 
soldiers, sailors, airmen, and Marines to innovate and to 
problem solve and we know they are the best in the world. These 
young men and women develop a unique skill set during their 
years of service in uniform. We need to do everything possible 
to clear a path for them to use those skills to make a living 
for themselves and their families and to pursue their 
entrepreneurial dreams, not just for their own benefit, but, of 
course, for the benefit of their communities and our Nation.
    That is why, as Chair of the Senate Committee on Small 
Business and Entrepreneurship, we are holding this roundtable 
today to hear from veterans and policy experts, not only from 
my State of Louisiana but from across the country. I really 
appreciate Senator Enzi, who has a great deal of experience in 
this regard, joining us today for this informal but important 
roundtable. I am looking forward to hearing his comments and 
questions. We want to see what Federal programs are working 
well to assist veterans in this transition and which need to be 
tuned up, substantially modified, or eliminated.
    Today, there are about 2.4 million veteran-owned small 
businesses in America, which represent about eight percent of 
all small businesses in the country. They generate collectively 
more than $1 trillion in revenue each year and employ almost 
six million people. In Louisiana, we are proud to have 57,000 
veteran-owned businesses that employ 145,000 people. These 
small businesses represent nearly 14 percent of all the 
businesses in our State.
    Now, more than ever, our country needs innovative job 
creators building our economy and pushing us forward and taking 
advantage of the real extraordinary opportunities here in 
America today. We need to harness the leadership potential of 
our servicemen and women and eliminate barriers to employment 
and entrepreneurship.
    Unfortunately, some past efforts to address the unique 
needs of aspiring veteran entrepreneurs have proven to be 
inefficient and duplicative. For example, a 2008 GAO report 
found there was weak coordination among agencies to coordinate 
entrepreneurial small business assistance for veterans. One 
program was that there had yet to be established an Interagency 
Task Force to coordinate Federal efforts. As a result of this 
finding, the Task Force was established in 2008.
    Also in 2008, this committee conducted a review of the 
activities and operations of The Veterans Corporation (TVC), 
which had received more than $17 million in Federal subsidies 
since its inception in 1999. Not only did we find it was 
failing at its statutory mission of expanding technical 
assistance for veteran entrepreneurs, but we uncovered gross 
mismanagement of Federal spending.
    So, in 2012, I sponsored an amendment to eliminate the 
program so that, by cutting fat, getting rid of redundant and 
ineffective veterans' employment and training programs, we can 
better invest in those that work. I know that you share that 
goal with me.
    We need to focus on implementing smart, targeted programs 
that serve specific veterans' populations, provide ongoing 
support, and most importantly, in my view, and many on this 
committee, leverage public-private partnerships and use the 
great strength of our universities.
    For instance, the Boots to Business program offered by the 
Small Business Administration as part of the DOD's Transition 
Assistance Program provides transitioning service members with 
an introduction to entrepreneurship as a career option as they 
return to civilian life. To date, that program has reached more 
than 4,700 service members.
    The Entrepreneurship Boot Camp for Veterans with 
Disabilities, EBV, provides cutting-edge experiential training 
to veterans with service-related disabilities through a 
consortium of eight universities at no cost to participants. 
Since 2007, the EBV program has reached more than 820 disabled 
veterans who have started more than 530 businesses.
    Women Veterans Igniting the Spirit of Entrepreneurship, V-
WISE, is an entrepreneurial training program specifically for 
female veterans that is currently held at seven locations 
nationwide. As of January, the program has served about 1,000 
female veterans who have started over 550 new businesses.
    Finally, through a network of 15 Veterans Business Outreach 
Centers, the SBA provides ongoing support and assistance to new 
and existing veteran-owned small businesses. According to the 
SBA, three particular centers stand out for their exceptional 
work, the ones that are located in Massachusetts, New Mexico, 
and North Carolina. We have the North Carolina Veteran Business 
Outreach Center represented here today and we are looking to 
hearing more about their exceptional program.
    These programs and others have proven themselves to be 
effective and successful, which is why I am working on 
legislation to improve these services and reauthorize them for 
the next five years. If we find out differently at this 
roundtable, then that legislation can be adjusted.
    The men and women of our Armed Forces serve our Nation with 
honor and sacrifice and I look forward to hearing from each of 
you about what more you think the government at every level--in 
the hearing this morning, it will be mostly Federal, but we 
would love you to talk about anything that you know at the 
local or State level that is working well, and most 
importantly, comment about private sector and faith-based 
initiatives that are really working well so that we can do 
everything we can to provide a smooth transition for our 
veterans into the workforce and create opportunities for 
employment.
    Let me turn this over to my partner, Mike Enzi, for his 
comments, and then what I would like to do is have each of you 
just introduce yourself for one minute, name what you are 
either hoping to accomplish here or your best thing you want to 
share in one minute. And then the way this roundtable works, as 
the Senator knows, is very informal. I am going to pose a few 
questions. Your statements will all be put into the record. I 
am going to pose a few questions, and there is a lot of back-
and-forth, hopefully, that will go, and you can ask questions. 
We will be conducting this roundtable for another hour-and-a-
half.
    Senator Enzi, please proceed, and thank you so much for 
being a part of this.

OPENING STATEMENT OF HON. MICHAEL B. ENZI, A U.S. SENATOR FROM 
                            WYOMING

    Senator Enzi. Thank you, Madam Chairman, for holding this 
timely roundtable to have a real discussion about what the 
Small Business Administration is currently doing to assist 
those who have so admirably served their country to make their 
entrepreneurial dreams become a reality.
    While unemployment numbers for veterans remain unacceptably 
high, it is especially important that we look at the SBA 
programs and see how we can most efficiently and effectively 
encourage and assist current military personnel and veterans to 
consider turning their ideas into a business reality.
    I would also like to thank our distinguished panelists for 
taking the time to come and share their expertise with us 
today. I am looking forward to hearing from them on how well 
the SBA's veteran-geared programs are working at the ground 
level and what we can do to better serve the population that 
has done so much to serve our country.
    I am especially eager to hear from Lieutenant Colonel 
Anderson, who has a great book that outlines how military 
personnel can start working on their business ideas while they 
are still on active duty. In our current economic climate, we 
need to be thinking about innovative ways we can help our 
Nation's military personnel transition to civilian life and 
business ownership before they separate from the military.
    I am thrilled and proud to have a Wyomingite here today to 
share his expertise and firsthand experience setting up a 
business. Jason Anderson comes from Jackson, Wyoming, and is an 
active duty Lieutenant Colonel in the U.S. Air Force. He is 
currently serving at the Pentagon, but will, as many 
Wyomingites do, be returning to Jackson with his wife and 
family after his June 2014 retirement.
    He and his wife, Adrianna, spent three years planning their 
business, which they launched in April of 2013. In June this 
year, Jason also published a book called Active Duty 
Entrepreneur, discussing his experiences with the Small 
Business Administration and best practices he learned to help 
other active duty service members navigate their own business 
goals. The main goal of the book is to get active duty 
personnel to start thinking about their business goals well in 
advance of their military separation and retirement. By working 
on these goals while still in the military ecosystem, the 
ecosystem provides a stable job, regular pay, health care, and 
a predictable career timeline. Military personnel can then 
create their own smooth transition into a low-risk environment.
    I read and enjoyed Jason's book. I have got it well 
underlined and dogeared and commend him for it. I believe he 
not only has great ideas, but he has powerful testimony of 
firsthand experience. He is serving in the military and yet has 
set up his own business. He emphasizes in there to do it on 
your own time. I cannot think of anyone better to give us 
insight into ways we can better equip those who so selflessly 
and faithfully serve our country to succeed once they leave the 
military than someone who has gone through this process 
himself.
    I am glad Jason is here and I look forward to his 
contributions to this roundtable. I look forward to the 
comments of others. I appreciate the written testimony that we 
have gotten, which will, of course, be a part of the record. 
And, of course, we hope that we will be able to maybe submit 
some questions to you even after the hearing is over.
    Thank you, Madam Chairman.
    Chair Landrieu. Absolutely, Senator.
    And we have been joined by Senator Fischer.

  OPENING STATEMENT OF HON. DEB FISCHER, A U.S. SENATOR FROM 
                            NEBRASKA

    Senator Fischer. Good morning, Madam Chair.
    Chair Landrieu. Good morning.
    Senator Fischer. Thank you so much for holding this very 
important roundtable.
    I am thankful for the sacrifices made each day by our 
active duty service members and their families to protect our 
Nation and to guard the cause of freedom. I want nothing more 
for all of those who have risked life and limb than for them to 
be able to pursue the very American dream that they fought so 
courageously to defend.
    One of our most important roles in Congress is to ensure 
that Federal dollars are spent wisely and effectively. I look 
forward to the roundtable this morning and to hearing from each 
of the witnesses how programs aimed at supporting our veteran 
small business owners are working. We owe it to our brave men 
and women in uniform to ensure that all of the programs in 
place to support our veterans are run well and administered 
efficiently.
    Thank you, Madam Chair. I yield back.
    Chair Landrieu. Thank you very much.
    And as we said before you came in, it is time for everyone 
to introduce themselves, Rhett, starting with you, please. You 
have to lean into your microphone, press the ``talk'' button, 
kind of lean in so that your voice can be picked up. And if you 
would just introduce yourself for a minute or less and your 
name, background, and then what you hope to accomplish or share 
with the group today.
    Mr. Jeppson. Yes, ma'am. Good morning, and thank you for 
having and inviting us here today. I am Rhett Jeppson. I am the 
Associate Administrator at the Veterans Business Development. I 
head up the Office of Veterans Small Business Development at 
SBA.
    I am a serving Marine Corps Reserve Lieutenant Colonel. I 
have run a small business, my family's small business, have 
been Director of Purchasing for a State purchasing agency, the 
State of Florida. As I mentioned, I am not only in the Marine 
Corps myself, I actually have a daughter who is a PFC in the 
Marine Corps, so I like to give her a shout-out here.
    [Laughter.]
    But, what I would like to achieve today is I think that we 
have the core of some really good programs at SBA and we are 
very proud of the work that we have done to date. But those 
programs can always use process improvement as we look forward 
to serving the veterans' community. We cannot rest on what we 
have accomplished today or what our plan is. So, we look 
forward to hearing the roundtable's input into how we might 
improve the process and be of a better benefit and more affect 
our veterans' community. Thank you.
    Chair Landrieu. Thank you. Thank you so much.
    Louis.
    Mr. Celli. Thank you, Chairwoman Landrieu, and thank you 
for having this roundtable discussion today and for inviting us 
here. I am the Legislative Director for the American Legion, 
and in the interest of full disclosure, I ran the Massachusetts 
Veterans Business Outreach Center for ten years before taking 
over this position.
    Chair Landrieu. Well, a shout-out to you. That got great 
reviews.
    Mr. Celli. Thank you very much, and I am looking forward to 
discussing those successes here today as well as some of the 
programs that are overseen by SBA and some of the challenges we 
see with those programs in addition to ways that they can be 
improved. Thank you.
    Chair Landrieu. Wonderful.
    Ms. Spann.
    Ms. Spann. Good morning. My name is Harvetta Spann. I am a 
former Army logistics officer, turned corporate executive, 
turned entrepreneur. I am the President of BLS Group, Inc., a 
meeting and event planning company based in Northern Virginia. 
We are a service disabled, veteran woman-owned small business.
    I am also the co-founder of the WAVE, Women as Veteran 
Entrepreneurs. The purpose of the WAVE is to create forums to 
connect women veteran small business owners with government 
agencies, and prime contractors, to help them grow their 
business.
    I am also a V-WISE graduate. I graduated in 2011, the 
Baltimore Conference--I think that was the second conference 
that was held. Just recently I was asked to come to the Chicago 
conference and be a speaker and panel member. The V-WISE 
program played a huge role in helping me launch the WAVE and I 
am just here to express my gratitude for all the programs. 
Thank you.
    Chair Landrieu. Thank you so much.
    Mr. Dirks.
    Mr. Dirks. Well, good morning. Aaron Dirks, New Orleans, 
Louisiana. I am eight of those 2.4 million companies out there 
that are veteran-owned, a few hundred employees scattered 
around this country with a deep, almost sort of leader in 
Entrepreneurs Organization, which is a global entrepreneurs 
program and very active in veteran entrepreneurship matters.
    So, my goal here is to provide whatever feedback that I can 
and insights that I have seen over my years of entrepreneurship 
on successes and areas for improvement for the resources that 
are available or maybe can be made available to our aspiring 
veteran entrepreneurs and just to be present and willing.
    Chair Landrieu. Thank you so much.
    Lieutenant Colonel Anderson.
    Colonel Anderson. Yes. Good morning. My name is Jason 
Anderson, and to do the introduction, I do not think I could do 
a better job than my Wyoming Senator Enzi did, so I will keep 
my remarks fairly short here.
    [Laughter.]
    You asked to comment on what I would like to get out of 
this, and my goal here is to kind of look at active duty people 
just a little bit different than we had before. The current 
system as it stands now, as you do your military service, there 
is a clear partition between that and being a veteran. So, a 
lot of times, even in the support roles, they are addressed as 
such, and what I am trying to do is back up that line and even 
blur it a bit because there is a lot of time is what you are 
going to have most to benefit from when you are on active duty. 
And you can start these endeavors as early as you like and 
invest as much time, money, and effort as you would like and it 
just provides that system, and that is just what I wanted to 
share today.
    Chair Landrieu. Excellent. Excellent point.
    Mr. Rehder.
    Mr. Rehder. Good morning. I am Robert Rehder of North 
Carolina Veterans Business Outreach Center. I am delighted to 
be here and share with you some of my experiences this morning.
    As a Vietnam-era Navy veteran counseling literally a 
thousand or so veterans every year, I would submit to our 
committee here that every one of the men and women that I 
counsel do not want to be wards of the State or Federal 
Government. They want to reach financial and personal 
independence through a small business. They simply, in most 
cases, do not know how. I am delighted to share some of my 
experiences today and hope to gain other experiences that will 
help me augment my program. Thank you.
    Chair Landrieu. Wonderful. Thank you, Mr. Rehder.
    Dr. Haynie.
    Mr. Haynie. Hi. My name is Mike Haynie. I am a veteran of 
the United States Air Force. I am the Executive Director of the 
Institute for Veterans and Military Families up at Syracuse 
University. I am also the Barnes Professor of Entrepreneurship 
at the Business School there at Syracuse.
    As a veteran and as a Professor of Entrepreneurship, the 
topic of veteran business ownership is more than just a 
professional interest. It really is a passion of mine because I 
believe as strongly as I believe anything there is nobody more 
deserving of the opportunity to live the American dream of 
business ownership than somebody who has put on a uniform to 
defend that dream.
    So, I spent the better part of the last seven years since I 
left active duty service designing and managing programs, 
training programs focused on empowering veterans through 
business ownership, to include the EBV program, the V-WISE 
program, the Entrepreneurship Boot Camp for veterans' families, 
and now the new transition track from DOD, the Boots to 
Business program. So, I am excited to talk about how we can 
continue those private-public sector partnerships to grow and 
expand these programs.
    Chair Landrieu. Excellent. Thank you so much. I have read 
recently so much of what your university is doing, and you, and 
cannot wait to hear more.
    Mr. Ferguson.
    Mr. Ferguson. Chair Landrieu, committee members, good 
morning. My name is Chris Ferguson. I am the President of 
Shoulder 2 Shoulder, a service-disabled veteran-owned small 
business located in Arlington, Virginia. My partner, Ken Falke, 
is the service-disabled veteran.
    Our primary goal is to develop information technology and 
[off microphone] that improve operation and performance, 
prevent traumatic injuries, and enable veteran recovery and 
reintegration. We pursue our goals with a socially responsible 
business plan. We deliver tangible results to the government 
while driving up to 50 percent of our after-tax profits back to 
veteran charities. I am proud to say that 57 percent of our 
employees are U.S. military veterans and 40 percent of them are 
disabled U.S. military veterans.
    Our flagship product is a customizable mobile application 
called IMPACT. IMPACT is a secure collaboration network focused 
on video lessons learned from the counter-ID community. This 
program was recently validated by the U.S. Special Operations 
Command and is currently available across iPhone, Android, web, 
and mobile web. Our goal----
    Chair Landrieu. And did you bring--we are not going to read 
the statement today, but did you bring some of your video to 
show today?
    Mr. Ferguson. Unfortunately, I did not.
    Chair Landrieu. Did not.
    Mr. Ferguson. I did not know----
    Chair Landrieu. Oh, all right. I saw it in my office. You 
all are going to miss it, but we will try to get it back. All 
right.
    Mr. Ferguson. Thank you.
    Chair Landrieu. Mr. Rowe.
    Mr. Rowe. Thank you, Senator Landrieu. I am Tee Rowe. I am 
the President of America's SBDC, which represents the Small 
Business Development Center network nationwide. It is over 950 
centers and over 4,000 professionals. About 13, 14 percent of 
the folks that SBDCs assist are veterans. In 2012, it was about 
37,000 veterans that we assisted.
    The big thing that I would like to get out of this 
roundtable is to discuss the coordination between the offerings 
that SBDCs have, Boots to Business, and all of the other tools 
that are out there so we can find some efficient and really 
effective ways to make sure veterans get every bit of 
assistance they need. Thank you.
    Chair Landrieu. Mr. Wynn.
    Mr. Wynn. Thank you, and good morning, Senator and other 
members of the committee. My name is Joe Wynn and I am the 
President of the Vets Group, National Legislative Director for 
NABVETS, and also Air Force veteran. As such, I am also a part 
of the Veterans Entrepreneurship Task Force, of which I have 
been a part of since 1999.
    Collectively with other representatives of VSOs and other 
veteran small business owners, we have been seeing the 
implementation of P.L. 106-50 since that time and have 
continued to participate and advocate for ways to increase 
contracting opportunities for veteran business owners, 
particularly in the Federal marketplace. And what I would like 
to see today is to learn how we can continue to increase and 
get above that three percent mandate for Federal veteran 
business contractors.
    Chair Landrieu. Thank you very much.
    Well, let us start this roundtable, and just to remind my 
Senators, when members want to speak--not you all, just signal 
to me--but everyone else, just put your name card up like this 
and I will call on you, because I really want this to be very 
informal. You can jump in. This is not a formal hearing that 
you normally see, and we think the information that we get from 
these roundtables is really extraordinary.
    So, I want to start with you, Mr. Haynie, if I could. 
Speaking from a university, obviously, you have a great passion 
for what you do. You have started the Institute for Veterans & 
Military Families. You are a Ph.D. You look out and study 
things that are working from your vantage point, things that 
are not. Could you just begin this roundtable by giving us some 
specifics about the program that you think is most effective in 
leveraging private sector funding, because, as you know, our 
government funding is limited. We want to make sure that we are 
investing it in programs that get the biggest bang for the buck 
and leveraging the private sector and the nonprofit groups that 
are out there to really target our veterans. And then I am 
going to come back to Mr. Anderson about that blurred line that 
he talked about. But go ahead, and if anybody wants to jump in, 
you can.
    Mr. Haynie. I would be happy to. I think two things jump 
out at me as examples, and I told Rhett Jeppson and others that 
we work with at the Federal level that some of the things that 
we have been able to do with SBA represent, in my mind, some of 
the most entrepreneurial, if you will, examples of a private-
public partnership.
    EBV, for example, the program that has been mentioned a few 
times, was a program that I started when I left the military 
and it has since expanded to eight other universities. That 
program was created and initially grown without any government 
money whatsoever. It was not until, I think, 2009, 2010 that 
that program received a small grant from the SBA, to the tune 
of, I think, about $150,000 a year. But the reality is, the 
eight universities that participate as well as private sector 
partners fund that program to the tune of about $1.2 million a 
year to fully fund it on behalf of all the veterans that go 
through.
    So, none of the 800-plus wounded warriors who have gone 
through that program to date have paid a nickel for that 
training, to include transportation, lodging, the residency. We 
actually had to go through an exercise at one point of valuing 
that experience on the private market for the Marine Corps. It 
was about a $42,000 per person experience that was delivered 
without any cost at all to the veterans. Because it was 
delivered in a higher education setting, we could leverage 
existing infrastructure at, for example, one of our partners, 
LSU, and the cash cost nationally across our eight universities 
to deliver that program works out to be about $5,500 per 
veteran for a market-based experience that, if we did it 
outside of higher education, as I said, would be about $42,000.
    Chair Landrieu. It would be $42,000.
    Mr. Haynie. V-WISE is another great example. We have been 
able to essentially act as a bridge for the SBA----
    Chair Landrieu. Before you get to V-WISE, let me ask you 
this. Tell me real quickly--I know it is in the testimony, but 
explain. The program is a residential program for just a few 
months, or is it a few weeks, or----
    Mr. Haynie. It actually starts with some distance learning, 
so the veterans go through some online training. Then we bring 
cohorts of 25 at a time to the campuses of eight different 
universities--UCLA, Texas A&M, Florida State, Cornell, Pursue, 
the University of Connecticut, obviously up in Syracuse, and I 
always miss one, but I made sure--and LSU, but I had 
mentioned----
    Chair Landrieu. LSU. Do not miss LSU.
    [Laughter.]
    Mr. Haynie. And they are there for an eight-day residency, 
7:30 in the morning until 10:00 at night. But the important 
thing is, then we plug them into a year of what we call 
technical assistance, where they are afforded, for example--
another good example of public-private partnership--a small 
business lawyer. We created a partnership with the law firm DLA 
Piper, the largest law firm in the country. Every graduate gets 
access to a small business lawyer. They get access to an 
accountant. They get access to web design, logo design 
services, et cetera, all funded and made available by the 
private sector through collaborations and partnerships that we 
have built.
    So, the full term of the engagement for the program is 
about 14 months of intense engagement, but we continue to 
essentially cultivate a family of graduates that we bring 
together once a year. We just did that down in Dallas two weeks 
ago, so we----
    Chair Landrieu. And are these veterans invited, or do they 
volunteer, or how are they selected to be a part----
    Mr. Haynie. It is a competitive process, so they go through 
a competitive application process. You know, I describe it as a 
blessing and a curse that we have many, many more applications 
to the program than we actually have available seats every 
year.
    Chair Landrieu. Yes. How many applications do you have?
    Mr. Haynie. This year, we probably were unable to have 
seats for 350 to 400 qualified, ready for the training 
applicants. We had many more applications than that that I 
would say some of those applicants were not quite ready for 
the----
    Chair Landrieu. But with a little help could have been----
    Mr. Haynie. Absolutely.
    Chair Landrieu. So there is a real need. And do any of you 
all want to comment or know about this program, or have had any 
experience with it, or have heard people that have been through 
it? Anybody? Go ahead, Mr. Dirks.
    Mr. Dirks. So, I have been a volunteer with the EBV program 
in the LSU for a number of years now, the three years that it 
has been around. I donate services from my businesses, 
transportation, education. I give keynote addresses. I have 
gotten--I have done personal mentoring with a lot of the 
applicants that have been there.
    And I can personally testify that it is one of the best 
entrepreneurial programs that I have seen in my experience, and 
my experience is more than just veteran programs. I have done 
accelerated programs with Federal and State and local 
incentives. I work with SBDCs. Anyway, my point is that the EBV 
program is, by far, one of the most efficient and productive 
processes in the amount of time that I have seen any kind of 
kickstarter program have, and I think it is one that can be 
replicated if we leverage resources appropriately to reach more 
of those----
    Chair Landrieu. Excellent. Mr. Celli.
    Mr. Celli. Thank you. We have been a big fan of the EBV 
program ever since it started. We have been partners with Mike 
in Syracuse. We have actually participated as guest speakers in 
some of the programs. And by far and large, the program is 
definitely the Cadillac of veterans programs and it is for 
those gazelles, as the SBA likes to call it, those people who 
are just really, really ready to take that next step.
    Getting them to that step, as you have previously 
mentioned, is really the big challenge, and as we have heard, 
800 participants over the past six years is an excellent way to 
get these veterans into the small business arena, but it barely 
makes, really, a dent in the overall veteran population of 
veterans who aspire to start their own businesses.
    There is a recent report by the Kauffman Foundation that 
cited, from 1999 until about three years ago, the average 
participation by veterans in the small business arena was 
around 12 percent. Over the past three years, it has dropped to 
roughly six percent. You quoted eight percent earlier in your 
opening remarks. So, that is a very troubling decline, 
something that we need to address, and that is one of the 
reasons that I am very pleased that we are having this today.
    Chair Landrieu. Mr. Ferguson.
    Mr. Ferguson. As part of the lessons learned work that we 
do with many young veterans who are both reintegrating or still 
active duty, with some of the work that we have done with 
veterans that have already reintegrated and started their own 
small businesses, inevitably--and I have this on video, 
unfortunately I do not have it today, but I have it on video 
where I have heard multiple men and women say that the EBV 
program has been invaluable to their experience in starting a 
small business, and two young wounded Marines that started a 
small business in North Carolina, for example, said they 
recommend every veteran, and particularly wounded veterans, go 
through that program.
    Chair Landrieu. That is just really extraordinary 
compliments of this program.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chair.
    Following up on your comment about active duty veterans, 
and Lieutenant Colonel Anderson, you mentioned that, as well. 
Is there any way that we can better help the folks transfer 
from active duty to the private sector and really utilize the 
skills that they have? Are there programs out there that help 
with that, either at the Federal level or at the State level, 
that any of you would know about?
    Colonel Anderson. Great question, and sorry I have got to 
do the little caveat before I talk anymore, but even though I 
am an active duty Lieutenant Colonel, my remarks and all my 
comments today are just based on my private experience in 
starting up a business and writing a book, so I have to make 
that clear divide between I am certainly not representing the 
Air Force while I am here. Get that out there.
    [Laughter.]
    Answering your question, we have actually looked into these 
programs, as well, my wife and I, because these kind of 
endeavors are always a family-based affair. So, we have looked 
into them, and just like all the comments that have been made, 
these are very valuable programs.
    And answering your question, going back to the active duty, 
there are a couple challenges that are presented there. One is 
just the military culture. The military culture starts off, you 
begin your training, you go through your term in whatever 
service you are choosing, and then you become a veteran. I 
mean, it is literally blocked off like that. And a lot of the 
support is done that way, as well.
    There has been a lot of stuff with the Vow to Hire Heroes 
Act of 2011, going into the Department of Labor and then 
talking about the different tracks that they are doing now as 
part of the TAP GPS program, of which I have done. But the 
problem is, it is the individual service member that is the 
challenge, and why I say that is because of the culture, they 
delay and delay and delay getting their support that they have 
for the TAP GPS program that then gets them to the transition. 
So, it is very much left up to the individual.
    Senator Fischer. Are there partnerships with private 
businesses to help utilize their skills that they have learned 
while being in the Armed Forces? I am trying to figure out how 
veterans can make a transfer and really benefit in a positive 
way from what they have learned while they have been serving 
our country.
    Colonel Anderson. Absolutely. And, like everyone has 
mentioned here, there is so much talent and untapped talent for 
entrepreneurial endeavors of any kind. The thing is, how do we 
reach back there, and that has become my kind of sole mission 
with Active Duty Entrepreneur, is I am trying to energize the 
individual, and I am going to get into their--and the launch--
as part of any business, you start out in phases and then you 
continue on. But the important stuff that I want to kind of 
highlight with Active Duty Entrepreneur is just I am talking 
about just a different approach. I mean, all the existing 
systems are great. They must continue. They are very critical.
    But what I am talking about is empowering the individual to 
the point where they are funding their own business. There will 
be no help from the government. Part of the plan is they use 
and dollar cost average their own salary into their own build-
up of their plan. So, they are owning it, literally, and the 
way they do that is just they have more time, talking about the 
ecosystem that Senator Enzi was talking about. If you can 
control the time aspect of that, you have a lot of leverage 
when you go out into that.
    Funding on your own dime is a critical piece of the puzzle, 
in my personal opinion, because once you do that, you figure 
out, if you do not have enough money, you have got to figure 
out how to partner. You have got to figure out how to find 
corporate sponsors. You have got to figure out--and these are 
the savvy kind of scrappy business tactics that are going to 
become beneficial to them while they are setting up their 
business and then, obviously, when they become a full-fledged 
mature business that can then provide jobs to others.
    Chair Landrieu. Mr. Anderson, let me press you on this 
point, because I think the Senator has raised an excellent 
point. I can actually really see and really admire you for 
thinking this is outside the box, blurring that line, getting 
our veterans that have gotten skills and talent which the 
United States has invested a tremendous amount of money in 
training, et cetera, et cetera.
    But give us, honestly, one or two comments--and I am going 
to get to you, Mr. Jeppson--about what the military would think 
of this. I mean, if you think about a commander, they have got 
their troops ready to deploy, to fight, and then you and I, 
others, would like them to be starting to transition out. How 
do you honestly see the commanders looking at this, as a 
problem or a possibility? I mean, I can see why they keep that 
line sharp. But on the other hand, but does not seem like it 
makes a lot of sense. Could you comment for two minutes on 
that, and then I am going to get to Mr. Jeppson and anybody 
else, Mr. Haynie or anyone that wants to comment.
    Colonel Anderson. Absolutely. Those are great questions, 
and I get those very frequently. Of course, culture is always 
an issue, but something that people do not look at is, first, 
this is solely done on your own time, never done with resources 
provided by the government. But, the fact is, we do not work 24 
hours a day. There is a certain duty day period, and the way I 
differentiate it in my mind is that the military can make me go 
wherever they want me to go. I have to deploy. I salute smartly 
and go. But when I have those eight or 12 hours off, during my 
free time, I can pretty much pursue an endeavor so long as it 
is not in conflict with what my present job is. That is where 
the dividing line is.
    Now, when you talk about a commander, I try to take the 
other side of the dime on that. If we have more business savvy 
people scattered in the aggregate throughout the Department of 
Defense, we are actually going to make better acquisition 
decisions. We are going to have better, more business-
experienced people that can then brief up to their staff and to 
their generals that make decisions on acquisitions that can 
actually help them negotiate scope things. These are just 
different things that you learn when you are starting a small 
business.
    Chair Landrieu. Right, when you are learning.
    Mr. Jeppson.
    Mr. Jeppson. Yes, ma'am. If I could go back just real quick 
to the Boots to Business and the EBV piece----
    Chair Landrieu. You have to speak into your microphone, 
please. I am sorry.
    Mr. Jeppson. Yes, ma'am. Okay. So, if I could, if I could 
just go back to EBV and V-WISE real quick, you know, in both of 
those programs, when you look at the total dollars that we put 
into that, it is a pretty small amount, and when I think you 
look at the small numbers that we have had through, it is still 
a pretty good return on investment. You know, when you look at 
EBV, it is less than $150,000 a year that we put into that, so 
it is not a lot of money.
    But, like Lou mentioned, it does not really come to scale 
for the service members right now, and that is where Boots to 
Business focuses. It is on scale. It--when we are fully funded, 
anyway, it will be at scale. You know, we have enjoyed--it has 
been in the President's budget the past two years. We have had 
good House and Senate marks, but, hence, under CR. So, we are 
only able to come to a certain amount of scale, which is about, 
utilizing our current capacity, about 12 percent. That is the 
$4,700 that you mentioned----
    Chair Landrieu. What is it in the President's budget for 
and what number have you been operating at lower than that?
    Mr. Jeppson. So, it is in the President's budget for the 
past two years at $7 million----
    Chair Landrieu. Seven million.
    Mr. Jeppson. At $7 million, and we have had no budget. We 
were able to reprogram out of----
    Chair Landrieu. You have had zero?
    Mr. Jeppson. Zero additional funding for it. We had--we 
were able to program about $650,000 out of some Jobs Act money, 
out of 2012 Jobs Act money----
    Chair Landrieu. So, this is a program we are trying to 
start, but we cannot get the line item funding for?
    Mr. Jeppson. Yes, ma'am. Exactly. Because we have been 
under CR, we have had no additional funding.
    Chair Landrieu. This is a real problem.
    Mr. Jeppson. It is. When you consider, though, that we have 
wringed [sic] out every efficiency we can in SBA, and we get--
we were able to get about 4,000 people through there, and it is 
really through the good work that we have with our resource 
partners, the SBDCs, the WBCs, the District Offices, the SCORE 
chapters who are out there actually delivering that on post.
    If I could a little bit, it does--and I certainly 
understand what Colonel Anderson is talking about, where we do 
have some challenges. The service is trying to back up with 
Transition GPS so that people start to think about, when they 
leave the service--earlier, ideally--TAP is going to happen a 
year before they leave the service now--before it happened 
about 30 days before you left the service and it was not 
uniform. But there is certainly that tension, and we see that 
with Boots to Business right now, about people even coming 
through the transition courses right now with the operational 
deployment and schedule that we have. You know, the service is 
being drawn right now. Op tempo still remains high. So there is 
that natural tension. You know, obviously, we would love to 
turn them all into entrepreneurs while they have that stable 
environment.
    I think that one thing that we mentioned when we talk about 
the service members is also the service members' spouses. We 
see a lot of spouses coming through the Boots to Business 
program here and they take advantage of that, and they can take 
advantage of that even before the member separates. It provides 
an opportunity and it is a good pathway for a lot of spouses to 
engage in entrepreneurship. It provides other economic benefit 
for the family. It also helps alleviate some of those 
stressors, if you will, of finance and other things. So, we 
think that it is not only a benefit for the service member, but 
the service member's family. And by offering it earlier in the 
transition lifecycle for the exiting service members, we hope 
to increase their readiness when they actually do exit the 
service.
    Chair Landrieu. That makes so much sense.
    Mr. Rehder, I would love to hear from you, and then I will 
get Senator Enzi in just a second. Could you comment about 
this, because you have not said anything and you run one of the 
best programs in the country that sees thousands of veterans 
that come in and must ask you for help and support, and you are 
hearing about two great programs. Are you able to access those 
programs for the men and women that you are trying to reach, 
and could you comment on that?
    Mr. Rehder. Yes, ma'am. Thank you very much. It is 
difficult to understand how veterans think, especially when 
they come back from a combat arena. And so we work very closely 
to understand how their mindset is going into training. So, the 
mindset for most of these folks, and they are men and women and 
they may be across the board--they may be enlisted, they may be 
warrant, or they may be commissioned officers--is a shockingly 
low level of financial literacy. And I am not casting 
aspersions on any of my fellow veterans, but that is the case.
    And so a program like Boots to Business is extremely 
important, because at some point, not while they are on active 
duty within a combat area, but when they come back and they go 
through the CAP and the ACAP program, now they are introduced 
to the basics of economics, the very basics--how money, cash, 
goods and services flow in the United States and across our 
borders. They absolutely need that before they can go into a 
meaningful further advanced program, and the Boots to Business 
gives them that opportunity.
    I teach the Boots to Business. I have greatly enjoyed it 
and I can tell you it is a wonderful program.
    Chair Landrieu. Senator Enzi. Thank you, Senator.
    Senator Enzi. Are we going to go back to comments----
    Chair Landrieu. Go right ahead. This is very informal. You 
can go back.
    Senator Enzi. Mr. Jeppson mentioned about working with the 
spouses. I know that Colonel Anderson's wife has been involved 
in the business. It seems like it could fill a need there. So, 
what effort are we going to involve spouses in these businesses 
and this planning for when they might get out and how early?
    Mr. Jeppson. Well, to be honest, Senator, we have not 
started to really market or push the Boots to Business program 
yet because we cannot come to scale or capacity. What we have 
done is just worked within the Transition GPS system that is 
there and we have brought it to the scale that we have capacity 
to.
    If we look at the numbers that we have, we have seen about 
23 percent of the service members that come through the Boots 
to Business class are female, and about 15 percent of the 
service is made up of females. So, women, female veterans, 
obviously, are attending--are over-indexing there. But when we 
look at the dependent indicator, it is about six to seven 
percent. So, about six to seven percent of the spouses are 
showing up in the Boots to Business class. So, we think even 
without marketing or doing outreach to the spouses that we are 
getting some pretty good traction in that area here. But, we 
have a lot of spouses.
    You know, when I was on active duty and I PCSed around the 
Nation, it was kind of by magic, it was my spouse who helped me 
with a lot of that step. And so we see a lot of the spouses 
coming with the active duty service member and it is a team 
effort, as Colonel Anderson mentioned.
    Senator Enzi. I think that might help with the adjustment a 
lot.
    Chair Landrieu. Yes, absolutely.
    Mr. Dirks, you had your placard up, and then I am going to 
get you, Mr. Haynie, and then Mr. Wynn.
    Mr. Dirks. So, I will answer a few different questions that 
have come up since I put my card up, but the main one is I 
wanted to make sure we cover, you know, first is what can we do 
to better reach those that are exiting, better prepare them for 
an entrepreneur endeavor. The first thing is we must 
reauthorize or authorize the four programs that we have already 
mentioned that you are sponsoring in your bill. That is an 
absolute first.
    I will use two military terms in my next recommendations. 
One is coordination of effort and two is force multiplication. 
These are two proven, necessary applications that we find in 
our Armed Forces for the last 200 years, that it has only been 
in the last 15 that we have gotten some sense of progress. But, 
if we apply those to what we are seeing in the military 
transition environment, it is very logical.
    Coordination of effort, we have already mentioned, already 
at this panel, that we are all working on different programs 
that we are just not talking maybe as efficiently as we could 
be coordinating those resources, making them more efficient.
    But more importantly, I found out this morning that there 
are 2,399,992 other folks like me out there in this country. 
And I am exceptionally motivated to help my fellow veterans get 
jobs. I have put a few hundred of them to work, but also to 
help those that are entrepreneurially inclined to start a 
business, whether they are my employee or not. We have 2.4 
million folks that are sitting out here as resources that do 
not even know we are out there.
    So, leveraging those forces and delivering those resources 
to whatever program is most applicable--I know for myself, I 
would speak that I would be more efficient in my own 
volunteering of my time and the effort just to be more 
knowledgeable, connect that network in whatever meaningful way 
to provide that information and----
    Chair Landrieu. Very important, and with the Internet, it 
makes it so possible to do this.
    Dr. Haynie, you must--and then I will get you, Mr. Wynn--
you must have some ideas about this, because you run a 
consortium of, what, eight universities, and how do you all 
coordinate with not only your program, in which you are 
leveraging a small amount of money and getting a lot of private 
money, but how do you leverage with these other programs?
    Mr. Haynie. Yes. I think it goes back to something both 
Rhett and Lou talked about that I will respond to as a way to 
answer this question. I think we--it is hard to overstate the 
historic opportunity that Boots to Business represents. If you 
look back to World War II, and we have, doing research, 11.8 
million Americans shouldered the burden of that war. Within 
seven years of the end of that war, according to the VA, almost 
54 percent of them had started small businesses in this 
country. They really built the foundation for this country to 
become a technological and global superpower.
    And we somehow, over the course of the last 50 years, 
forgot to talk about transitioning--to transitioning service 
members about business ownership as a post-service opportunity. 
When EBV was an idea in my head when I got out of the military 
in 2006, at some point, I realized I had to actually go out and 
recruit some veterans to participate, and I talked my way into 
a Wednesday morning Commanders Call at Walter Reed, you know, 
400 soldiers/patients in a gym, and I do not think the folks 
that organized it knew what I was there to--they just thought 
he was a college professor going to talk to them about going to 
school.
    Chair Landrieu. Little did they know what you had in mind.
    [Laughter.]
    Mr. Haynie. And I got up and I started talking to them 
about business ownership, but the lesson here is, after I was 
finished, the vocational counselor who had set that whole thing 
up pulled me into a room and she actually yelled at me and she 
said, ``Do not come down here talking to them about business 
ownership. It is too hard. They are going to fail, and if they 
fail, we will be the ones that get blamed.''
    We have come--and I sort of knew what I was up against at 
that point. If you looked at the official TAP program at the 
time, looked in the manual, there was one paragraph on page 200 
or whatever it was that said, and, oh, by the way, maybe you 
can also start a business. We are now talking about 
institutionalizing business ownership as one of the formal 
transition pathways out of the military for all of our service 
members. I think the potential is historic, and I am not one 
prone to be dramatic. But I think it is historic.
    But, I think it also--to your question, I finally get 
around to it--it serves as a coordinating mechanism if we can 
institutionalize that pathway, to all of these other efforts 
and programs. It connects folks to the SBDCs. It connects folks 
to the VBOCs. It becomes a feeder to all of the private sector 
programs and efforts in a way that becomes formalized and not 
sort of ad hoc, as it is now. And that is why I think it is so 
important----
    Chair Landrieu. To get it funded.
    Mr. Haynie. And then to lose--full disclosure. So, my team 
designed the curriculum and the model for Boots to Business, 
and we took everything that we learned from EBV, all those 
university partners, and built that curriculum and model. So, 
Boots to Business is also my response to, how do we scale? This 
is how we scale. We get Boots to Business institutionalized.
    Chair Landrieu. And, Senator, before you came in, Boots to 
Business has been proposed by the administration over and over 
at, what, $7 million, but it is not funded, and they are just 
scraping money together to try to--because we are operating on 
CRs. So, it is really interesting to see how much we could 
leverage with, really, a relatively small investment. And thank 
you for that historical perspective.
    Let me get you, Mr. Wynn, and then Mr. Anderson.
    Mr. Wynn. Thank you. I just want to kind of bring this 
together and not lose sight of another very important piece of 
which we started these programs. As I mentioned earlier, in 
1999, when we started developing this veterans entrepreneurship 
program here in America, they created the Office of Veterans 
Business Development, where Rhett is now Associate 
Administrator, so that we would actually--veterans would have a 
place designated within the SBA to specifically focus on ways 
to bring veterans more into opportunities for entrepreneurship. 
And in so doing, there was also this mandate to create 
opportunities within the Federal marketplace. So, while all 
veteran business owners or all persons do not necessarily want 
to do business with the Federal Government, I think we owe it 
to those veterans and to the programs that were created and to 
the Federal agencies that are out here searching for veteran 
business owners to satisfy those requirements to also bring 
them into that Federal marketplace.
    Now, each of the programs that were mentioned, Boots to 
Business, Dr. Haynie's programs, are excellent programs 
educating veterans about entrepreneurship, and all I am saying 
is I think it is also necessary that we find a way to bring 
some of them, anyway, some of them, into our Federal 
marketplace to satisfy that piece of this whole 
entrepreneurship pie.
    Chair Landrieu. Does anybody want to comment on that? Mr. 
Anderson, you can if you want to, or you can comment on 
whatever you had in mind.
    Colonel Anderson. It all kind of relates anyhow. When 
talking with this, I think a challenge everyone at this table 
has--the prime challenge is being able to reach back far 
enough. And, like I said, I admire the efforts of what the 
Department of Labor is doing through TAP GPS and the other 
equivalents with the services. But, how to reach back and make 
sure the service member is even aware that this is an option is 
the challenge. When you get that figured out, something that 
has to be said is the environment is going to become more 
complex, just--right now, we talk about the blocked, segmented 
approach. Once it becomes more complex, which is reflective of 
the outside world, by the way, which is going to be beneficial 
to the service member, beneficial to the family and all that, 
that is the kind of the environmental shift that has to take 
place to set the stage.
    Now, the other piece I want to make is why this is so 
popular with spouses is because--and this is male and female, 
by the way, because I talk to a lot of them--the spouse network 
has it figured out. They already know that this model is 
effective where the service member has the ecosystem from which 
to spring a business, whether it be a combined business, 
spouse-owned business, or anything like that.
    But, again, the key thing is being able to reach back into 
a very, very busy military career with people that have nonstop 
training modules to begin with for everything you could dream 
of and then being able to somehow let them know that there are 
other options out there and have that flow somewhat seamlessly 
into a career entrepreneur type----
    Chair Landrieu. But is that not going to take a lot of 
cooperation from the Department of Defense, which this 
committee does not have jurisdiction over but which we can have 
some influence with, which is what I am hoping this roundtable 
will give us some information to petition to the Department of 
Defense or to bring this to their attention. So, we will come 
back to that in a minute.
    Do you all have any other questions or comments, because I 
want to continue to take some of their--Mr. Ferguson, you have 
had your placard up for a while.
    Mr. Ferguson. Well, Senator, I wanted to address your point 
on technology, and I think it connects directly to Mr. Dirks' 
comments about force multiplication. In my mind, technology is, 
obviously, a vital piece to this puzzle, not only because it 
provides the scalability for a lot of these answers and for the 
ability to aggregate a lot of these quality programs.
    But, as Mr. Dirks said, the fact that he heard today that 
there were 2.499 other million veterans in the same boat, you 
know, we originally responded to an instance in the hospital 
where there was a wounded bomb tech on one wing of the hospital 
that did not know there was a wounded bomb tech on the other 
wing of the hospital.
    So, the ability for technology to meaningfully connect the 
valuable programs--and there is no shortage of valuable 
programs and content--but technology should be part of the 
scalability of this, but I think it is also very important to 
look at this generation of 9/11 warfighter responds--not only 
responds, but in a lot of ways demands answers and technology 
literally in the palm of their hands. And if you cannot hit 
these guys and gals where they live in terms of technology and 
expectations of, you know, good video multimedia content, it is 
very difficult to be relevant with this generation of 
warfighter.
    Chair Landrieu. Mr. Celli.
    Mr. Celli. Thank you, Senator, and I would like to respond 
to your Boots to Business question earlier. You know, over the 
course of the ten years--first of all, I spent 22 years in the 
Army. I can tell you that my experience has been that DOD sees 
these types of programs as competition. They are looking for 
reenlistments. They are not looking to educate people into the 
job force or into entrepreneurship, and that is just a personal 
observation.
    With regard to Boots to Business----
    Chair Landrieu. But, when you think about that, I mean, not 
to continue to go back to this point, but when you think about 
it from a taxpayers' point of view, all of the money that goes 
into the training of our military, which is extraordinary, and 
for us then to not take out of that appropriately, in an 
appropriate way, the benefit of that for the same taxpayer is 
what this roundtable is about.
    We do not have anyone from the Department of Defense here, 
so we cannot go too, too far down this, but we may do a second 
panel on this because I feel so strongly about it. I am 
determined, as the Chair of this committee, to hone down and 
find the best programs that are working, which ones are 
scalable, and how can we give our veterans a real opportunity 
to create their own businesses based a lot on the assets we 
have already paid for, I mean, not throwing a whole lot of new 
money at something, but using the assets of the universities, 
of our training programs, like you have used, Mr. Haynie, so 
beautifully, at $5,000 input and a $45,000 value out for the 
men and women that you are--but go ahead. I did not mean to 
interrupt.
    Mr. Celli. Well, no, and I could not agree more. I mean, 
entrepreneurial assessments will determine that there are 
several ways that people become entrepreneurs. One of them is 
through necessity. One of them is through a vacuum in the 
marketplace. And one of them, with military service, when my 
colleagues that I went to school with went into the workforce, 
they fully expected that that job that they were applying for 
would prepare them to elevate to the next level of employment. 
It is not so in the military. Once you complete your military 
service, it is almost like you are starting over in the 
workforce. So, entrepreneurship, small business ownership, 
becomes exactly those outlets that you talk about with regard 
to leveraging that expertise and resource.
    To round back to the Boots to Business model, over the 
course of ten years, I have had the opportunity of using 
several off-the-shelf programs. The Kauffman Foundation puts 
out the New Venture program. Next Level puts out a program. And 
the beauty about the Boots to Business package is that it is a 
nice off-the-shelf entrepreneurship basic training with 
military-minded writers who understand the nature of what we 
do. Unfortunately, due to the restrictions in the budget, we 
are really not even able to roll that out to the average 
veteran right now. It is currently being restricted only to the 
TAP programs.
    So, there is a wonderful resource that was specifically 
designed for our community that we have needed since 1999. It 
is the first time we have been able to write our own doctrine 
and we cannot even afford to use it. We cannot even offer----
    Chair Landrieu. For $7 million. Yes, for a shortage of $7 
million.
    Mr. Celli. And that is just a start.
    Chair Landrieu. Okay. Mr. Rehder, and then Mr. Anderson.
    Mr. Rehder [off microphone]. Somewhere around a million 
transitioning veterans from active duty that all of you all are 
familiar with, those numbers, in the next five years, and we 
know that some 30 percent of those numbers will choose through 
the ACAP and TAP program an entrepreneur route. So, that is 
300,000 veterans, men and women, that we will need to train.
    Now, if you look at the grassroots situation that I 
mentioned, that these folks are not able through a lack of 
financial literacy to understand all of these wonderful 
programs. They have one--they have one that is adopted by ACAP 
and by TAP and by the DOD and their commanders have been 
instructed to have these folks go to these meetings, and that 
is the Boots to Business program. And the programs that I have 
worked with, and we have a lot of public and private 
partnerships. We work with all of the SBA-funded resource 
partners and we enjoy working with them.
    This program will reach all of those transitioning 
veterans. It is the best one that I could----
    Chair Landrieu. Do you think you could reach all 300,000 if 
we do it correctly?
    Mr. Celli. Yes, ma'am. Exactly.
    Chair Landrieu. Okay. Mr. Rowe.
    Mr. Rowe. Thank you, ma'am. I thought you would call on Mr. 
Ferguson or Rhett first, but----
    Chair Landrieu. I am sorry. I got confused.
    [Laughter.]
    Mr. Rowe. That is okay. You know, everyone has been talking 
about coordination of effort, and I heard Mr. Celli stay Boots 
to Business is a Cadillac program. But--and I am not a veteran, 
I am a car nut, so I look at it more as I think it could 
honestly be--while it is Cadillac in quality, more like a Model 
T, because I think we can build out the assembly line. We can 
coordinate the effort, and we have the resources for force 
multiplication. We are already doing a lot of work with Rhett's 
folks through the SBDCs. I mean, he can attest to how well 
attended the training that he did at our annual conference was.
    And our folks are operating out of 63 networks that are 
mostly at colleges and universities, so I think we have got a 
great potential to expand beyond the eight universities that 
are already working with Dr. Haynie. Two, Wharton in 
Pennsylvania and the Eisenberg School in Massachusetts, and as 
that expands, that will necessarily bring the cost down, 
because if you are not bringing a veteran from Iowa up to 
Syracuse but rather to Des Moines----
    Chair Landrieu. Iowa State, yes.
    Mr. Rowe [continuing]. It is going to be that much easier 
and that much more cost effective. So, I see a lot of potential 
in this and I see it, finally, as something that we can 
coalesce our efforts for veterans around.
    It is both I consider a feather in my cap that I worked 
hard with Chairman Talent on 106-50. I am also a little 
embarrassed by some of the parts that did not work so well. 
But, that intent and that framework is still there, which is to 
build a comprehensive veterans assistance program through the 
SBA.
    Now, as far as what you said about the assets and what 
Senator Fischer talked about, there is a provision in 106-50 
which specifically talks about working on certification. There 
are so many skills that men and women in the services come out 
with that are applicable, but are not necessarily exactly what 
the commercial world sees as the appropriate skill set for 
servicing jet aircraft or servicing anything, but could easily 
be adapted. There was supposed to be a certification panel 
developed. I still believe that needs to be developed so that 
young men and women who are coming out with skills and now they 
are more, frankly, computer related, can step in to a world 
where they can establish their own business, whether it is 
doing systems integration or whatever, without having to 
relearn the wheel, if you will.
    Chair Landrieu. I want to come back to that in a minute. It 
is an interesting point between the jurisdiction of the 
Department of Labor making those certifications level for 
people that are leaving the service as an airplane tech, going 
in to work with Boeing as an airplane tech, and matching that 
up so that they do not miss out or lose the opportunity. This 
committee is really more focused on the entrepreneurship jump 
and what we need to do to smooth that out to give them more of 
a chance.
    Mr. Jeppson, go ahead.
    Mr. Jeppson. Yes, ma'am. I just want to follow up on a 
couple of things here, and just maybe I could help frame a 
little bit of it out. I think that one of the things that----
    Chair Landrieu. You have got to lean into your microphone.
    Mr. Jeppson. Yes, ma'am. I apologize.
    Chair Landrieu. I am sorry.
    Mr. Jeppson. Just to follow up on a couple of things, Mike 
mentioned the framework that Boots to Business represents. I 
can give you a couple of concrete examples of that, is we have 
had a lot of people from higher institutions of learning, like 
Harvard Business School, et cetera, et cetera, want to 
participate in a program with veterans and be able to introduce 
them to their network of angel investors and things like that, 
but this presents an opportunity for us to coalesce the various 
efforts around the country and then we could have force 
multipliers with that.
    Additionally, and this goes back--I sit on the Veterans 
Employment Initiative Task Force in my role as Associate 
Administrator. That is comprised of the Department of Labor, 
Defense, and VA, and we oversee the new Transition GPS. As part 
of the new Transition GPS, which is a transition program for 
veterans, they are moving to what they call the military 
lifecycle.
    And so early on, just after a recruit or entry-level 
officer joins the service, they will actually receive a little 
bit of TAP training, if you will, which talks about where do 
they see themselves going when they exit the service, whether 
it is four years of entry-level service or when they retire. 
So, the idea is just to begin to tie the service member to a 
kind of a pathway or what they expect to accomplish in the 
service and where they see themselves going after they leave 
the service, whether it is after four years or what.
    So, there has been some thought, pretty serious thought, 
that has gone into this, but TAP is new. The new Transition GPS 
is new. It is just being implemented. So, this will come in the 
second phase here, but the service is thinking about that.
    Again, when we look at the Boots to Business delivery 
model, I think one of the strengths of the Boots to Business 
delivery model, when you look--with the new TAP GPS, there are 
four tracks. There is higher education, there is traditional 
employment, vocational tech, and then entrepreneurship. The way 
that we deliver entrepreneurship is through our resource 
partner network in the District Offices. So we have the SCORE 
chapters, the SBDCs. Actually, people who deal on this day to 
day, actually going on post and delivering that curriculum. In 
my opinion, that is a lot better than sending contractors down 
there to do it and it is a more cost effective way and it 
leverages the SBA resource network.
    The other part that it does, and I can tell you from 
personal experience, as a Marine who came back out of Desert 
Storm and took over a family business, I wish I would have 
known the SBDC was about 45 miles away from my house and that 
there was a VBOC down there I could have gone and talked to. It 
would have saved me a lot of headaches. We introduce the 
service members early on to that SBA network and there is huge 
value in that.
    Chair Landrieu. That is such an important comment, and let 
me get Mr. Anderson--that is such an important comment or point 
about making sure that the veterans that we are encouraging, if 
they want to, to think about their next step as a business 
owner, to at least be introduced to the network of assets that 
are already there, both public and private. Forget whatever the 
VA is doing, just what is there for anyone in America that 
wanted to start their own business, you know, is getting that 
information out as to what services are there for them at 
either no cost or very minimal cost, and to connect the 
veterans. Like you said, it would have been good for you to 
know there was a center 45 minutes from you that could have 
helped you with sharpening your business plan, et cetera, et 
cetera. So this is very exciting.
    Let me get you, Colonel Anderson, and then I will come back 
to you.
    Colonel Anderson. Sure, and I just recently went through 
the TAP GPS class back in February, so I know the efforts that 
are being made, but, again, the challenge being getting back 
early enough. I have read about the career lifecycle efforts 
that are being made, and that is kind of what I was alluding to 
before, is that--again, personal comments here--the DOD needs 
to be okay with people--if we are going to do what the 
Department of Labor suggests and everything else with the SBA, 
they need to be okay with people doing extracurricular 
activities in their off-time. Again, clearly not during duty 
hours, clearly not using government equipment, clearly not 
using any assets that are those, but in their own time doing 
that, and the DOD, if they were okay with that, that would set 
the environment that I was talking about before.
    Another part of that that you guys kind of beat me to the 
punch is that I have used the SBA for the last three years. I 
mean, there are, I think, 48 offices in Virginia. I probably 
hit four of them. I go there frequently. They know me. They 
have helped develop me for extremely low cost to self, and 
again, I am all about doing the self-funding and also 
advocating the self-funding because it teaches you some very 
important lessons.
    When I mentioned previously that it is going to become a 
more complex environment, I guess I did not address the fact 
that it is already complex with the DOD current approach, where 
you do your service, then you become a veteran, and then the 
programs become effective for the most part tailor-made toward 
the veterans. Well, right now, I mean, you can already see that 
the complexity is that you carry on your service, then you 
become a veteran, and then even the government is segmented as 
DOD and then VA. So you can see that it is just how the 
approach has been mostly laid out, and it looks like we are 
making solid groundwork on altering that a little bit, but--
thank you.
    Chair Landrieu. Great. And, Ms. Spann, let me get you and 
then Mr. Wynn. Can you tell us a bit more from your perspective 
about anything you want to comment about what you have heard, 
but also about the V-WISE program and how it either is the same 
or different.
    Ms. Spann. Yes, ma'am. Thank you. Well, first of all, let 
me say that I am a huge advocate of the SBA programs. As a 
small business owner, I think I have leveraged just about all 
of them, starting with my local Small Business Development 
Center. I went there for counseling. My counselor helped focus 
me and get me on the right track to getting started in my 
business.
    Additionally, I went to V-WISE. Oh, man, that program was 
awesome. It was well organized. It was motivational, phenomenal 
instructors that did a phenomenal job of teaching and training 
the women that went through there. I left V-WISE thinking I 
could conquer the world. I definitely wanted to focus on the 
government contracting arena and getting business within the 
government.
    To Mr. Wynn's point, again, I left V-WISE ready to conquer 
the Federal Government contracting business, but I had no idea 
on what to do next. That is what motivated me to form the WAVE, 
Women As Veteran Entrepreneurs. I knew that there were women 
business owners out there that had leveraged the programs, gone 
through V-WISE. Many of them attend WAVE seminars. But we did 
not know how to get government business after going through 
those programs.
    What we did with the WAVE is that we brought together 
government agencies, because those are the people that we 
wanted to do business with, and we asked them, what do we have 
to do, as a small business, to do business with you? Also--as a 
small business, just starting off, you hear a lot. You get a 
lot of recommendations to--you need to partner with larger 
business to get into the Federal Government, to get past 
performance. Well, we also invited in large businesses and 
prime contractors and we asked them to tell the business 
owners, what is it that you are looking for in a small business 
to partner with? And, we invited in the small businesses, to 
network and partner with each other.
    Chair Landrieu. The world of government contracting is very 
complicated.
    Ms. Spann. Yes.
    Chair Landrieu. We spend a lot of time on that in this 
committee, and we are making some progress. The Federal 
Government has overall goals that each Department has to set 
contracting with small businesses particularly, and it can be a 
real maze for many of the small businesses, and some danger, 
actually, contracting with the Federal Government, if you are 
not paid on time or if there is a squabble in the process. If 
you are too small and dealing with a big agency, it could be 
detrimental to the business. On the other hand, we want to give 
small businesses an opportunity across the board.
    Mr. Wynn, and then we are going to move to another subject 
and wrap up in about 15 minutes.
    Mr. Wynn. Okay. Thank you. I do not want to just sound like 
part of the choir for the SBA, but SBA really should be very 
involved with veteran business owners. But we also mentioned a 
little bit about budgetary constraints, and actually, SBA has 
been woefully underfunded since this program started. So, they 
really have not been able to provide the level of services 
needed for veteran business owners that the veterans really 
truthfully deserve.
    Speaking of additional resources, as people come out of 
these entrepreneurship programs, the Veterans Business Outreach 
Centers. We had advocated and promoted the use of Veterans 
Business Outreach Centers for years. They just expanded a few 
years ago, and there are still, what, only maybe 16 around the 
country, and they are woefully underfunded.
    So, if we are going to set up this whole system, let us try 
to connect the dots. As we begin to increase the pool of 
capable and qualified veteran business owners from these other 
entrepreneurship programs, again, knowing that and 
understanding everybody is not trying to be a government 
contractor and you do not want to put all your business into 
just government contracting----
    Chair Landrieu. Correct.
    Mr. Wynn. But, we still have on the other side this mandate 
for government agencies to meet this mandatory requirement to 
use veteran business owners, so we cannot just--I do not think 
we should ignore that and not try to educate those that want to 
participate in the marketplace to be able to do that.
    We also had--I think in 2010 it was passed into law that 
the SBA Small Business Veterans Advisory Committee would be 
active and made permanent. Now, I am told the SBA has no 
funding to allow that committee to continue to form and do what 
it was designated to do. I know we also have the Interagency 
Task Force on Veterans Business Development, but it was real 
purposeful to have that Advisory Committee and I am sorry to 
see that it is no longer being formed and organized.
    Chair Landrieu. Does anybody else have a comment about the 
importance of those advisory, or the lack thereof, whatever 
your position is, of the advisory boards and whether they 
should help or not, could help or not? And then I want to get 
back to something to you, Mr. Haynie, but Mr. Jeppson.
    Mr. Jeppson. Yes, ma'am. Just one point. As Joe mentioned, 
what we had was under 106-50 we did have the Veterans Advisory 
Committee. Last year, due to sequester and cutbacks, we were 
unable to allow--and the travel cap--we were not able to travel 
them last year. Normally, they will meet three times a year. We 
did not have the funding to do that. We encouraged them to meet 
by phone. It did not happen.
    But, quite frankly, we did have a number of people whose 
term was up in October. We have submitted new names and their 
first meeting is scheduled for early December. We are just 
making sure that we can get a quorum before we put it in the 
Federal Register.
    Chair Landrieu. Okay. Are we exploring any technological 
solutions to people meeting together, using some new 
technology, Skype, et cetera, which the private sector is using 
to some degree of success, I think, limiting their travel 
budgets and maximizing their impact?
    I am going to come back to that statement in a minute, but 
I want to get the question answered on this. There is a bill 
that is pending before the Congress to create a Veterans 
Business Outreach Center in every State. Right now, I think we 
have how many, 15? Do we want to create a Veterans Center in 
every State? Is it necessary? And, if yes, please explain. If 
your view is no, how can those veterans be served through the 
network that is already there? Does anybody want to take that? 
Mr. Celli.
    Mr. Celli. Well, again, thank you, Senator, and having run 
one of these centers, I can tell you that it is critically 
important to have one of these centers at a minimum in every 
State so that they can direct the veteran-centric services that 
are going to be required to service these veterans coming back. 
They can be the hub that connects them with Mike's program, 
that connects them with Joe Wynn for contracting, or Harvetta.
    And right now, I understand that Tee Rowe's network is 
assisting veterans, but there is no harmonious relationship 
between the Veterans Business Outreach Centers and the SBDCs. 
If anything, there is a sense of rivalry and competition there 
because they are both competing, in some cases, for the same 
dollars when it comes to grants.
    So, to ensure that there is a funding mechanism 
specifically to fund Veterans Business Outreach Centers, and if 
you look back at the success rate of these centers, it is well 
worth the investment.
    Chair Landrieu. And these centers do not have to be a 
stand-alone building. They can be a center designated by 
something else that is already there to leverage the investment 
that is made.
    Mr. Rehder.
    Mr. Rehder. Yes. The VBOCs, mine and all the ones that I 
work with, the furthest thing from our mind is power struggles 
and turf battles. We are a clearinghouse for referrals to our 
clients, our men and women veteran clients, to all of these 
resource partners that we have heard about today, and we do 
that on a very regular basis. We take them as far as we can. 
But some of these folks can take them further and we refer our 
people to them and we have a wonderful referral system. So, I 
would certainly think that one in each State would be an 
outstanding benefit to our veterans.
    Chair Landrieu. And I am going to get Mr. Dirks, and then I 
am going to ask you all, as we close, to think of your last 
sort of two-minute wrap-up, something that I did not ask that 
you want to ask and answer yourself, something that you want to 
add to this discussion, and then we are going to close out. Mr. 
Dirks.
    Mr. Dirks. Thank you, ma'am. Again, going back to the 
multiplication, you know, I personally give somewhere between 
$100,000 and $150,000 a year in in-kind and cash contributions 
to veteran entrepreneurship programs. I have many friends who 
are also veterans who own businesses in New Orleans and in 
Lafayette and in Baton Rouge who do something with me because I 
ask them to.
    With a mechanism like an Outreach Center in every State, I 
think that is probably one of the more efficient, quicker ways 
to start to really engage our community of business owners or 
veterans who are service-minded, who are giving-oriented. Even 
if it were $100 per 2.4 million of us, that is real, real money 
in either in-kind mentorship service or even cash. This 
requires someone to be a clearinghouse. It requires someone 
that is agnostic, that is not fighting over funding with other 
agencies and can be a true leverager of all those pieces to do 
so, and I think the Outreach Center can do that.
    Chair Landrieu. Okay. Let us start with you, Mr. Wynn, and 
we are going to go around the room, just a two-minute wrap-up, 
anything that you want to either underscore or put on the 
Congressional record.
    Mr. Wynn. Thank you. I appreciate it, and I appreciate 
having had the opportunity to participate in this discussion.
    There is one thing I do want to share and put out there. 
There is a piece of legislation coming out of the House, H.R. 
2882, and actually, it talks about moving the VA verification 
process from the VA to the SBA. So, here again, we have the SBA 
involved in a very important part of veterans who are doing 
business, entrepreneurs and with the Federal contracting. So, 
many of us, we have been doing surveys and polls over the past 
two or three months and the majority of the feedback we have 
gotten is that the veteran business owners do support moving 
the process from VA to the SBA.
    In addition, though, I personally would like to see a Vets 
First program, as is being conducted in the VA, to be conducted 
Federal-wide, throughout the whole Federal Government, that 
veterans come first and that we put those veteran entrepreneurs 
at the top of the line. It is a program that is not costing the 
Federal Government any additional money because the mandate is 
already there to use veterans. So, all they have to do is 
continue to find ways to create contracting opportunities for 
veteran business owners. Again, we want them to be capable and 
qualified, of course. But, then, who better to hire veterans 
than other veterans? So, you also help to solve the equation of 
veterans' employment. Thank you.
    Chair Landrieu. Thank you.
    Mr. Rowe.
    Mr. Rowe. I think--and I just want to follow up on what Mr. 
Celli said--I think the biggest thing that we need to think 
about is coordination. I think the idea of Veterans Outreach 
Centers in all 50 States is a great idea because I think the 
biggest problem we have is coordination. We run VBOCs in 
Florida and New York and a couple of other States, and then we 
have great working relationships with the folks in North 
Carolina and Louisiana.
    But--and this goes to Rhett's problem, and I will just give 
you a little anecdote. Rhett was down at the NAGGL conference 
in California just the other week asking the folks there, the 
folks in the lending community, for some assistance and some 
cash donations. I was sitting there thinking, my God, what is 
next? The VBOs have got to run a bake sale to get their job 
done?
    [Laughter.]
    We all share that mission, and what Mr. Celli said is 
correct. We should not be fighting over resources. There should 
not be a fight for resources. The $7 million that Rhett needs--
--
    Chair Landrieu. Is a drop in the bucket.
    Mr. Rowe. Yes. I guess that is a word. It is the nicest 
word.
    [Laughter.]
    So, I think it is coordination of effort which will 
obviously make all of our efforts cost effective. But then it 
is the knowledge that the resources are there for us to 
coordinate off of.
    Chair Landrieu. Thank you.
    Mr. Ferguson.
    Mr. Ferguson. Yes. Just to tag on, really, to what a number 
of people have said here today about the importance of 
coordination among the different assets, be they public, be 
they private, force multiplication.
    I think what I would like to really underline is the role 
that technology has to play in that and, again, how that ties 
to this generation of warfighter and their relationship and 
demands on technology, their expectation that resources be in 
the palm of their hand. I certainly do not for a second doubt 
that it is vital to have a veteran location, as we have 
discussed, in every single State, but I still think there needs 
to be a digital connective tissue throughout these programs to 
amplify these positive resources as well as really speak to 
this generation of warfighter and how they expect information.
    We have a fully funded multi-platform collaboration network 
that the DOD has done all of the heavy lifting on. The 
government has purpose rights to this application, and I would 
be happy to work with anybody on the committee to figure out 
how that application, which, again, the government has purpose 
rights to, can be repurposed to be part of the solution set. 
Thank you.
    Chair Landrieu. Thank you very much, Chris.
    Dr. Haynie.
    Mr. Haynie. I think the rest of my roundtable panel members 
have done a good job with--normally, I think I would end with 
something strategic, but I am going to put one more issue on 
the table that we did not spend a lot of time on today and that 
is our female veterans, and I want to do that in the context of 
V-WISE.
    V-WISE was never legislated. It was a program that was 
funded initially with discretionary funds from the SBA. Karen 
Mills, when she was Administrator, had some additional funding 
and she said, let us create a national training program for 
female veterans.
    Honestly, I pushed back initially. As an entrepreneurship 
professor, I remember saying to her specifically, I would not 
train a woman to be a business owner any differently than I 
would train a man. As a veteran, I jumped right to veterans or 
veterans. But, we went forward. We built the program, offered 
it for the first time in 2010 down in San Antonio. That was the 
first city we took it to. And I remember vividly arriving at 
the registration table, and I could not understand why there 
were so many women crying----
    Chair Landrieu. Crying?
    Mr. Haynie. Crying. And I started asking questions, and 
what we heard is that many of these women that participated in 
this program had been out of the military five, seven, ten, 15 
years and had never participated in a veterans-related event 
before, and the only reason they were participating in V-WISE 
was that it was only women, and we asked why, and we heard 
things like, you know, ``I do not always feel welcome,'' ``I do 
not always feel like I can share.'' We also heard--and now, 
since that time, a lot of this has come out--we also heard over 
and over again, ``I do not feel safe.'' ``I do not feel 
physically safe.''
    And so I had to eat my words, I guess is where I am going, 
is that I was wrong to push back. I think we have to 
acknowledge that the veterans community is diverse and made up 
of individuals with different goals, aspirations, experiences, 
backgrounds, and fears. We have to also, as we talk about then 
designing programs and networks or programs and ecosystems, do 
so acknowledging that, for example, our community of female 
veterans, who I have come to believe are the most underserved 
segment of the veterans community, have a different set of 
needs and there is not one solution, strategy, that is really 
going to satisfy and best empower this community broadly moving 
forward. So----
    Chair Landrieu. Thank you, Dr. Haynie, for that testimony. 
I really appreciate it. Thank you for sharing that.
    Mr. Rehder.
    Mr. Rehder. Thank you. I have seen up close and personal 
our clients establish an enduring, sustaining business. That is 
the American dream for most of the clients that I work with. It 
is absolutely a moving experience for me, and I am sure for all 
of us in this room.
    I will end by thanking this committee and Congress and the 
SBA for its funding and support and I will move on with better 
and more meaningful programs in the future. Thank you, ma'am.
    Chair Landrieu. Thank you, Mr. Rehder.
    Colonel Anderson.
    Colonel Anderson. Thank you. And, I think I could pretty 
safely say we all are looking for the same result here, and 
that is higher employment, entrepreneurship for the veterans. I 
just look at it at a completely--not completely different, but 
a different pathway to do that. What I want to do is empower 
the person to actually control their own future and control the 
future of their family, as well.
    And my theory is, and as I work toward that in my current 
business model with Active Duty Entrepreneur, is empower them 
to do that. Get them from point A to point B. Show them that 
there is another pathway. There is another pathway besides the 
military culture saying, I need to find something in the 
defense industry. It is just part of the DNA. I do not know how 
to explain it, but it just seems to be part of the construct. 
You show them that pathway. You let them know it is an option, 
and I think that they are going to take advantage of securing 
their own transition.
    Chair Landrieu. Thank you for that vision.
    Mr. Dirks.
    Mr. Dirks. Thank you, ma'am. You know, again to reiterate, 
there is an embedded level of a massive amount of resources in 
our community in this country. I am here to testify to that. I 
am an exemplifier of that. I can testify to at least a few 
hundred of those folks, not to the millions that evidently 
exist. But let us continue and endeavor to engage those 
resources in whatever ways we can, and your departments and 
your programs and the VBOCs, Dr. Haynie, the amazing work that 
you have done.
    We must authorize the three programs that he started and 
the Operations Centers that we have been so diligently working 
on, at a minimum, and then those programs to work to engage not 
only the veteran business owners themselves, but also just the 
overwhelming tens of millions of Americans that are available 
and willing to serve in this regard.
    Chair Landrieu. Ms. Spann. Thank you very much.
    Ms. Spann. Thank you. I would just like to end with 
thanking you, ma'am, for all that you do to help our veteran 
entrepreneurs. It is necessary and very much appreciated. 
Thanks in advance for continuing to fight for us.
    Chair Landrieu. Thank you. Well, we thank the veterans for 
all they have done for our country over the many decades and 
centuries now and want to do everything we can to make sure we 
give them a path for continued success.
    Mr. Celli.
    Mr. Celli. Thank you, Senator, and I would like to expand 
on what some of my esteemed colleagues here have mentioned 
today.
    You know, Aaron talked a little bit about spouses, and I 
think that that is critically essential to the viability of the 
future of DOD, because if you keep the spouses engaged, then 
they are going to be less resistant to moving every three 
years. They need something that is portable that they can take 
with them from duty station to duty station so that they are 
not worried about their next employment and leaning on the 
service member, saying, you know what? This might not be for us 
anymore. So, that was one thing.
    And, another thing is Bob kept talking about financial 
literacy, and I do not think that that really fully got vetted. 
No one in this room thinks that the Patriot Express or any of 
the 7(a) programs or any lending program should be free money 
for veterans. Quite the opposite. They should be competitive 
and difficult to get because the gauntlet needs to be gone 
through for a veteran in order to make sure that they 
understand what that money is going to be used for, and the 
only way to do that is through training. The only way to make 
sure that that business plan is solid and sound is if it goes 
through one of the experts that work with veterans and 
understand the dynamic of the way a veteran has that ``can do'' 
attitude and thinks that they cannot fail, because their entire 
military career, there has been a safety net in place for them.
    I would also like to talk about what Mr. Wynn said, that it 
is really criminal that our veterans come from the front lines 
to go to the back of the line in contracting. Our Nation, 
especially the Department of Defense, really should step up and 
create a program that honors their ability to understand the 
DOD intricate programs and contracting, as Colonel Anderson had 
mentioned, and also be able to recognize the fact that they 
took three, five, 20 years out of their lives and can now 
return the value of the education they received in DOD.
    On behalf of the American Legion, thank you for inviting us 
today to share our views.
    Chair Landrieu. Thank you. Excellent.
    Mr. Jeppson, last word for you.
    Mr. Jeppson. Yes, ma'am, just briefly. I would like to just 
real quickly recognize Robert Bailey, who is in the audience 
with us today. He is an EBV graduate, a small business owner 
here. Robert, if you want to raise your hand real quick.
    Chair Landrieu. Welcome, Robert.
    Mr. Jeppson. He was just recently awarded a joint venture 
mentor protege program with SAIC. So, it is not SBA and it is 
not the joint mentorship that is helping a small business 
owner. It is him out there on himself, but we kind of helped 
maybe on the edges, and so we are very proud of that and we 
consider that our sacred trust and privilege at SBA, to be able 
to support our veterans community.
    Senator, we thank you for your leadership on this issue and 
hosting us here and we look forward to working with you and 
your staff to improve the processes for these veterans.
    Chair Landrieu. Thank you so much.
    Now, the record of this will stay open for two weeks for 
any additional information that you would like to submit. You 
all have access to each other's information and location, et 
cetera. I really encourage you to keep this exchange going on 
between you.
    Our staff is going to take all this under advisement, look 
at the bills that have been filed in Congress on the subject 
and try to use the benefit of the testimony here to shape those 
bills and requests for funding to advance the ideas that were 
put forth today.
    So, thank you all very much. Continue to use the staff as a 
resource to help you accomplish what you hope to do.
    [The information for the record follows:]
    Chair Landrieu. Thank you very much. Meeting adjourned.
    [Whereupon, at 11:24 a.m., the committee was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

[GRAPHIC] [TIFF OMITTED] T6306.001

[GRAPHIC] [TIFF OMITTED] T6306.002

[GRAPHIC] [TIFF OMITTED] T6306.003

[GRAPHIC] [TIFF OMITTED] T6306.004

[GRAPHIC] [TIFF OMITTED] T6306.005

[GRAPHIC] [TIFF OMITTED] T6306.006

[GRAPHIC] [TIFF OMITTED] T6306.007

[GRAPHIC] [TIFF OMITTED] T6306.008

[GRAPHIC] [TIFF OMITTED] T6306.009

[GRAPHIC] [TIFF OMITTED] T6306.010

[GRAPHIC] [TIFF OMITTED] T6306.011

[GRAPHIC] [TIFF OMITTED] T6306.012

[GRAPHIC] [TIFF OMITTED] T6306.013

[GRAPHIC] [TIFF OMITTED] T6306.014

[GRAPHIC] [TIFF OMITTED] T6306.015

[GRAPHIC] [TIFF OMITTED] T6306.016

[GRAPHIC] [TIFF OMITTED] T6306.017

[GRAPHIC] [TIFF OMITTED] T6306.018

[GRAPHIC] [TIFF OMITTED] T6306.019

[GRAPHIC] [TIFF OMITTED] T6306.020

[GRAPHIC] [TIFF OMITTED] T6306.021

[GRAPHIC] [TIFF OMITTED] T6306.022

[GRAPHIC] [TIFF OMITTED] T6306.023

[GRAPHIC] [TIFF OMITTED] T6306.024

[GRAPHIC] [TIFF OMITTED] T6306.025

[GRAPHIC] [TIFF OMITTED] T6306.026

[GRAPHIC] [TIFF OMITTED] T6306.027

[GRAPHIC] [TIFF OMITTED] T6306.028

[GRAPHIC] [TIFF OMITTED] T6306.029

[GRAPHIC] [TIFF OMITTED] T6306.030

[GRAPHIC] [TIFF OMITTED] T6306.031

[GRAPHIC] [TIFF OMITTED] T6306.032

[GRAPHIC] [TIFF OMITTED] T6306.033

[GRAPHIC] [TIFF OMITTED] T6306.034

[GRAPHIC] [TIFF OMITTED] T6306.035

[GRAPHIC] [TIFF OMITTED] T6306.036

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
